20-1315
IN THE

Supreme Court of the United States
STATE OF LOUISIANA,
Petitioner,
v.
AARON HAUSER,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE

COURT OF APPEAL OF LOUISIANA, THIRD CIRCUIT
PROOF OF SERVICE

Undersigned counsel certifies that pursuant to Supreme Court Rule 29.3, the
accompanying Brief in Opposition was served on each party to the above proceeding,
or that party’s counsel, and on every other person required to be served, on July 7,
2021 by both electronic and First Class Mail to the following names and addresses:
Elizabeth Baker Murrill
Solicitor General
Louisiana Department of Justice
1885 N. Third St.
Baton Rouge, LA 70802
murrille@ag.louisiana.gov

James R. Lestage
District Attorney
36th Judicial District
124 South Stewart Street
DeRidder, LA 70634
jrlestage@36thda.org

I declare under penalty of perjury that the following is true and correct.
Executed on July 7, 2021.

JILL PASQUARELLA
Counsel for Respondent

